<html>
<title> - STRENGTHENING OUR CRIMINAL JUSTICE SYSTEM: THE JOHN R. JUSTICE PROSECUTORS AND DEFENDERS INCENTIVE ACT OF 2007</title>
<body><pre>[Senate Hearing 110-54]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-54
 
    STRENGTHENING OUR CRIMINAL JUSTICE SYSTEM: THE JOHN R. JUSTICE 
            PROSECUTORS AND DEFENDERS INCENTIVE ACT OF 2007

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 27, 2007

                               __________

                          Serial No. J-110-12

                               __________

         Printed for the use of the Committee on the Judiciary


                    U.S. GOVERNMENT PRINTING OFFICE
35-799                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cardin, Hon. Benjamin L., a U.S. Senator from the State of 
  Maryland.......................................................    16
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    23
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts, prepared statement..............................    50
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    14

                               WITNESSES

Bergeman, Jessica A., Assistant State's Attorney, Cook County 
  State's Attorneys Office, Chicago, Illinois....................     9
Logli, Paul A., Winnebago County State's Attorney, and Chairman 
  of the Board, National District Attorneys Association, Rockford 
  Illinois.......................................................     4
Shepherd, George B., Professor of Law, Emory University School of 
  Law, Atlanta, Georgia..........................................     6

                       SUBMISSIONS FOR THE RECORD

Bergeman, Jessica A., Assistant State's Attorney, Cook County 
  State's Attorneys Office, Chicago, Illinois, prepared statement    19
Conference of Chief Justices, resolution.........................    21
Feinblatt, John, Criminal Justice Coordinator, City of New York, 
  Office of the Mayor, New York, New York, letter................    22
Gradess, Jonathan, Executive Director, New York State Defenders 
  Association, Inc., Albany, New York, letter....................    25
Greenlee, Ellen T., Defender, Defender Association of 
  Philadelphia, Philadelphia, Pennsylvania, letter...............    27
Hennings, James D., Director, Metropolitan Public Defender 
  Services, Inc., Portland, Oregon, letter.......................    29
Hobraffer, V. David, Public Defender, King County Office of the 
  Public Defender, Department of Community and Human Service, 
  Seattle, Washington, letter and attachments....................    33
Judge, Michael P., Chief Public Defender, Los Angeles County, Los 
  Angeles, California, statement.................................    47
Logli, Paul A., Winnebago County State's Attorney, and Chairman 
  of the Board, National District Attorneys Association, 
  Rockford, Illinois, statement..................................    56
National Association of Criminal Defense Lawyers, Martin S. 
  Pinales, President, Washington, D.C., statement................    69
National Bar Association, 2006-2007 legislative agenda...........    73
National District Attorneys Association, Alexandria, Virginia, 
  letter.........................................................    74
National Juvenile Defender Center, Patricia Puritz, Executive 
  Director, Washington, D.C., letter.............................    81
National Legal Aid & Defender Association, Jo-Ann Wallace, 
  President and Chief Executive Officer, Washington, D.C., letter    82
Shepherd, George B., Professor of Law, Emory University School of 
  Law, Atlanta, Georgia, statement...............................    83
State and local public defenders, joint letter...................    88
Swenson, Ingrid, Executive Director, Oregon Office of Public 
  Defense Services, Salem, Oregon, letter........................    96
Voluntary bar and allied associations, joint letter..............    97


    STRENGTHENING OUR CRIMINAL JUSTICE SYSTEM: THE JOHN R. JUSTICE 
            PROSECUTORS AND DEFENDERS INCENTIVE ACT OF 2007

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2007

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:03 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, presiding.
    Present: Senators Durbin, Cardin, and Whitehouse.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Senator Durbin. Welcome, everyone, to this meeting of the 
Senate Judiciary Committee. The topic of our discussion today 
is ``Strengthening Our Criminal Justice System: The John R. 
Justice Prosecutors and Defenders Incentive Act of 2007.'' I 
want to thank Chairman Senator Leahy for scheduling this 
hearing, and I also want to thank Ranking Member Senator 
Specter, Senators Kennedy, Biden, Kohl, Feinstein, Feingold, 
Schumer, and Whitehouse for their support of this legislation. 
We are honored to welcome as well the distinguished panel of 
witnesses whom I will introduce shortly.
    This bill seeks to address a serious problem with our 
criminal justice system. Prosecutor and public defender offices 
across the country are having major difficulties in recruiting 
and retaining qualified attorneys. According to the Department 
of Justice, in 2005 one-fourth of State and local prosecutor 
offices reported problems with recruiting new staff attorneys 
and over one-third reported problems with retention. The 
problem is particularly severe in large offices. Over 60 
percent of offices that serve populations of 250,000 or more 
reported problems with attorney retention. In every State, we 
hear exactly the same story from prosecutors. They simply 
cannot keep enough talented and experienced attorneys on the 
staff.
    The same is true for public defender officers. Here I want 
to give special recognition to the Appellate Public Defender in 
Illinois, Ted Gottfried, from my home town of Springfield, who 
brought this matter to my attention many years ago. As we all 
know, State and local governments are obligated to provide 
indigent defense services in order to satisfy criminal 
defendants' constitutional right to counsel.
    A recent survey found that over 60 percent of public 
interest law employers, including State and local public 
defender offices, reported difficulty in attorney recruitment 
and retention, and it is no secret why. Just look at the math. 
The average law school tuition in 2005 was nearly $29,000 per 
year for private law schools, approximately $23,000 for out-of-
State students, and over $13,000 for in-State students at 
public law schools. Those are just tuition costs. They do not 
include food, lodging, books, fees, or expenses.
    Over 80 percent of law students now take out loans to pay 
for their education. The average debt for a law school graduate 
is approximately $51,000 for those going to public schools, 
$79,000 for those attending private schools. Many law students 
graduate with well over $100,000 in law school debt. Two-thirds 
of law students also carry additional debt from undergraduate 
studies, which is not included in the totals I just gave you. 
Now, the average starting salary for State prosecutors or 
public defenders is around $45,000 a year. It is not easy to 
make large monthly payments on that kind of salary. In 
contrast, the median first-year salary in 2005 for private 
sector law firms was $100,000 a year. A starting salary of many 
big-city law firms exceeds $150,000 annually.
    Now, many attorneys will tell you part of the reason they 
went to law school was because they weren't very good at math. 
But even an elementary school student could add these numbers 
up and understand why we have a problem. If you want to work as 
an attorney in the criminal justice system, it is tough to pay 
off your student loan.
    I have heard from many dedicated young prosecutors and 
defenders in Illinois who work second and third jobs to make 
ends meet. I met an Assistant State's Attorney in the Cook 
County Office that Ms. Bergeman works in who also works--and he 
says he waves at me from time to time--at O'Hare. He is a 
freight handler when it is not serving as an assistant 
prosecutor in Cook County. Derrick Smith is that man. He drives 
a forklift at O'Hare to pay his $120,000 in student loans. Or 
Aisha Cornelius from the South Side of Chicago, first in her 
family to graduate from college, let alone first from law 
school. She still owes $110,000 in law school loans. She sells 
cosmetics at night to pay for the bills for her and her 
daughter. Jessica Bergeman is here from Skokie, and she is 
going to tell us about her own personal situation.
    But despite their desire to serve their communities and 
criminal justice systems, many young attorneys who start out as 
prosecutors or defenders find they have to leave after a few 
years. They just cannot afford to keep going. Our communities 
pay a severe price when these law graduates are shut out from 
pursuing criminal justice careers. Prosecutors and public 
defenders offices find it hard to attract new lawyers and keep 
experienced ones. Our witnesses today will talk about that in 
some detail.
    I introduced the John R. Justice Prosecutors and Defenders 
Incentive Act to try to address these problems. The bill is 
named after John Justice, former solicitor for the Sixth 
Judicial Circuit in South Carolina, President of the National 
District Attorneys Association, and a strong supporter of loan 
repayment for public sector attorneys.
    The bill would establish a student loan repayment program 
for qualified attorneys who agree to remain employed for at 
least 3 years as State or local criminal prosecutors or public 
defenders. These attorneys would receive up to $10,000 per year 
in loan repayments. After the 3-year commitment is up, 
participants can sign up for a second 3-year commitment, for a 
total of up to $60,000 in loan repayments over 6 years. If an 
attorney does not complete the required period of service, they 
have to pay the money back.
    This program is modeled after existing loan repayment 
programs currently available for Federal employees that have 
been used to recruit and retain hundreds of attorneys in the 
Department of Justice, the Securities and Exchange Commission, 
and other agencies. Our bill complements these existing 
repayment programs, which currently cover Federal prosecutors, 
by making loan relief available to Federal public defenders as 
well.
    The John R. Justice Prosecutors and Defenders Incentive Act 
will strengthen our criminal justice system. The bill will 
bolster the ranks of qualified attorneys in that system, 
enhancing the system's efficiency and public confidence. 
Prosecutor and defender organizations do not agree on much, 
particularly not in courtrooms, but they are united behind this 
bill. They recognize that the quality of our criminal justice 
system begins with those who serve in it.
    I understand that Senator Specter may be on his way and may 
be delayed. I would ask unanimous consent, and hearing no 
objection, that his opening statement be included at this point 
in the record.
    Now we are going to turn to our witnesses for their opening 
statements. I will note at the outset that one of our scheduled 
witnesses, Michael Judge, chief public defender of Los Angeles 
County, recently suffered an injury and was not able to be with 
us today, but his written statement will be submitted for the 
record, and we certainly wish him a speedy recovery. Each of 
the witnesses here today will be given 5 minutes for oral 
testimony, and their complete written statements will be 
included. And I am going to ask now if all the witnesses would 
please stand and raise your right hands to be sworn.
    Do you solemnly swear that the testimony you are about to 
give before the Committee will be the truth, the whole truth, 
and nothing but the truth, so help you God?
    Mr. Logli. I do.
    Mr. Shepherd. I do.
    Ms. Bergeman. I do.
    Senator Durbin. Thank you. Let the record reflect that all 
three witnesses responded in the affirmative.
    Our first witness is a friend of mine from my home State of 
Illinois, Paul Logli, the elected State's Attorney in Winnebago 
County. Mr. Logli has served as State's Attorney--that is 
Rockford, Illinois, for those who would like to know where the 
county seat is, but he has been in that capacity for 20 years. 
Prior to his current position, he served as Assistant State's 
Attorney, a lawyer in private practice, an associate circuit 
judge for Winnebago and Boone counties. He is the immediate 
past president of the National District Attorneys Association, 
currently serves as Chairman of the board of that association. 
He is also a member of the faculty of the National College of 
District Attorneys, past president of the Illinois State's 
Attorneys Association, a native of Rockford, a graduate of 
University of Illinois College of Law, and one of the more 
highly respected prosecutors in our State.
    Paul, thank you for being here today. The floor is yours.

STATEMENT OF PAUL A. LOGLI, WINNEBAGO COUNTY STATE'S ATTORNEY, 
    AND CHAIRMAN OF THE BOARD, NATIONAL DISTRICT ATTORNEYS 
                ASSOCIATION, ROCKFORD, ILLINOIS

    Mr. Logli. Thank you, Senator. It is a pleasure to be here 
on behalf of America's prosecutors, and we want to thank you 
for your leadership in bringing to the Senate this critical 
bill, the John R. Justice Prosecutors and Public Defenders 
Incentive Act.
    John Justice was a friend of mine. He was a solicitor, as 
you mentioned, from South Carolina, and he began the inquiry 
back in 1998 into what we could do to encourage the brightest 
and the best young persons to come into the prosecution area. 
He quickly identified at that time the law school and college 
debt as a major barrier to bringing people into the public 
service of prosecution, and let me just add also into the area 
of the public service as defender, both critically important to 
our system of justice.
    As State and local prosecutors, Senator, we are responsible 
for handling about 95 percent, prosecuting 95 percent of the 
cases in this Nation. And in order to ensure that these cases 
are handled competently, it is critical that prosecutor offices 
as well as public defender offices are able to not only recruit 
the best and brightest attorneys, but to also retain those 
qualified and experienced attorneys in their offices. Without 
these assurances, the safety of victims and the safety of the 
community, as well as the integrity of the criminal justice 
system and the rights of those persons who stand accused, are 
compromised.
    The reason for these recruitment and retention hurdles, 
both prosecutors and public defenders, is that they are paid 
less, much less than attorneys in the private sector, and they 
both graduate from law school with incredible burdens, 
staggering student loan debts--mortgage size student loans, as 
you have characterized it, Senator. Our annual starting salary 
is approximately $44,000 on the prosecution side and about 
$43,000 on the defense side. And this is up against the debts 
that from a private law school come to about $80,000, from a 
public law school over $50,000. And in some cases, the 
prosecutors and defenders are carrying six-figure loan amounts.
    We believe that the John R. Justice Prosecutors and Public 
Defenders Incentive Act will provide a solution to these 
challenges, very similar to that which is already provided to 
attorneys who work in the Federal sector.
    We struggle daily with the recruitment and retention of 
lawyers. We struggle daily to keep these offices fully staffed 
with trained and experienced attorneys. My jurisdiction, 
Winnebago County, Illinois, as one example, has a population of 
about 280,000 people living in a diverse community. The county 
seat is Rockford, which is the third largest city in the State. 
We face a daily challenge, just like every other jurisdiction, 
to provide effective prosecution of criminal and serious 
traffic cases. As arrests and prosecutions increase in number 
and complexity, we also face difficulty in holding onto younger 
prosecutors long enough to see them become experienced career 
prosecutors.
    In the last 30 days, in my office alone I have lost two 
prosecutors for one reason, and one reason only: they couldn't 
afford to work in the public sector. They both took jobs in the 
private practice. They both left before they had served in my 
office for 2 years. What a loss. They had just really started 
to become effective lawyers in the courtroom, tremendous 
promise.
    Several years ago, I had an attorney in my office who 
worked every night, 4 hours a night, at the UPS sorting hub at 
the Greater Rockford Airport in order to make her student loan 
payments. I don't know how she did it. I don't know how she 
took on the incredible load of a public prosecutor and at the 
same time worked 4 hours every night at the UPS hub.
    All the criminal cases from both sides, prosecution and 
defense side, have a serious impact on victims, the safety of 
the community, and the rights of the defendant. A recent survey 
showed that in 64 percent of prosecutors' offices that 
responded to our survey, they were affected by the attrition, 
the departure of good lawyers from their offices. In addition, 
53 percent of the prosecutors that responded to the survey told 
us that the student loan debt, law school student loan debt, 
was a very significant factor in their ability to retain staff. 
And 62 percent of the chief prosecutors reported that student 
loan debt is a very significant factor in their ability to 
recruit staff.
    Beyond recruitment and retention difficulties caused by the 
high costs of attending law school and the low salaries paid to 
local prosecutors and defenders, the chief prosecutors and 
supervisors cited other effects in their offices, such as 
increased caseloads per prosecutor, increased costs for 
training, decreased morale, and increased risk of prosecutorial 
error. And when you look at the defense side, it is the same 
problem. If you cannot attract and retain good defenders, your 
caseloads will increase per public defender. You will have an 
incredible expense of training and retraining, not to mention 
ineffective assistance of counsel, not because it is 
intentional but because we put defenders and prosecutors on 
difficult cases before they have had the opportunity to really 
develop the skills.
    I don't know how in good conscience we as chief prosecutors 
and chief defenders can ask young people to make the sacrifices 
they make. Our survey also indicated that more than 50 percent 
of the respondents who responded to our survey indicated that 
this student loan indebtedness not only affects their jobs, but 
it affects their personal decisions--when to start a family, 
when to buy a home.
    I understand that when somebody comes to work for me, it is 
a 50-, 60-hour week. I understand that. But it is not right 
that we ask them to make that kind of a sacrifice in order to 
work in a prosecutor's office or a defender's office. And it 
really does impede the ability of us to accomplish our mission.
    Let me just conclude. I am extremely appreciative, Senator, 
of your leadership on this in introducing this Act. I 
appreciate the opportunity to discuss the importance of the 
student loan repayment assistance for prosecutors and public 
defenders. Without this relief, it is clear to me that the 
administration of justice and the safety of our community and 
the welfare of victims will continue to suffer.
    Thank you for this opportunity.
    [The prepared statement of Mr. Logli appears as a 
submission for the record.]
    Senator Durbin. Thank you very much, Mr. Logli, for your 
testimony.
    Our next witness is Professor George Shepherd, Emory 
University School of Law in Atlanta, Georgia. Professor 
Shepherd is a graduate of Yale University and Harvard Law 
School and expects to receive his Ph.D. in economics from 
Stanford University this year. Prior to joining the faculty of 
Emory, Professor Shepherd served as law clerk to Judge Alice 
Marie Stotler of the U.S. District Court for the Central 
District of California and also worked in private practice. At 
Emory, Professor Shepherd has taught courses in corporate law, 
evidence, civil procedure, law and economics, and is the author 
of several books and numerous articles in law journals and 
periodicals.
    Professor Shepherd, thank you for joining us today, and the 
floor is yours.

   STATEMENT OF GEORGE B. SHEPHERD, PROFESSOR OF LAW, EMORY 
           UNIVERSITY SCHOOL OF LAW, ATLANTA, GEORGIA

    Mr. Shepherd. Thank you for the opportunity to testify 
before your Committee, and also I am here to support with great 
enthusiasm passage of the John R. Justice Prosecutors and 
Defenders Incentive Act.
    My main point today will be the following: If we limited or 
even eliminated the accreditation requirements for law schools, 
we could substantially reduce the costs of implementing the 
Act, and we could do this while at the same time improving the 
training of lawyers.
    Many of the participants in the accreditation system are 
public-spirited and selfless, and the system may provide some 
benefits. However, my research shows that the system has also 
imposed large harms. It has increased the cost of legal 
education substantially. It has suppressed potential new 
schools that would be cheaper, and sometimes also better. The 
system has excluded many from the legal profession, 
particularly the poor and minorities. It has raised the cost of 
legal services, and it has, in effect, denied legal services to 
whole segments of our society.
    Today, I will focus on one of these harms: how the 
accreditation system substantially increases the costs of legal 
education. The Act is excellent and essential legislation. 
However, we need to recognize that passage of the Act is 
necessary partly because of the accreditation system. Without 
the system, many more students would graduate from law school 
with no loans or much smaller ones so that they would not need 
to use the benefits that the Act provides. With the 
accreditation system, the Act will, in effect, transfer much 
taxpayers' money from the Federal Government to overpriced law 
schools.
    Strict accreditation requirements are a relatively recent 
phenomenon, having begun in the Great Depression. What seems 
normal now after 70 years was, in fact, a radical change from a 
much more open system that had functioned well for more than a 
century before then. Until the Great Depression, no State 
required an applicant to the bar to have attended any law 
school at all, much less an accredited one. Indeed, 41 States 
required no formal education whatsoever beyond high school. 
Similarly, bar exams were easy to pass, and they had very high 
pass rates.
    Often, the best lawyers did not go to law school. For 
example, my great-grandfather was Henry Russell Platt. He was a 
founding name partner of what is currently a leading law firm 
in Chicago, which until recently was called Mayer, Brown, and 
Platt. He never went to law school.
    During the Depression, State bar associations attempted to 
eliminate so-called overcrowding in the legal profession. They 
attempted to reduce the number of new lawyers in two ways: 
first, they decreased bar pass rates; second, they convinced 
courts and State legislatures to require that all lawyers 
graduate from ABA-accredited law schools.
    The ABA's accreditation requirements, in turn, increase the 
cost of becoming a lawyer in two ways:
    First, they increase law school tuition. They do this by 
imposing many costs on law schools. For example, accreditation 
standards effectively raise faculty salaries; they limit 
faculty teaching loads; they require high numbers of full-time 
faculty rather than cheaper part-time adjuncts; and they 
require expensive physical facilities and library collections. 
The requirements probably cause law schools' costs to more than 
double, increasing them by more than $12,000 per year, with 
many schools then passing the increased costs along to students 
by raising tuition. The total increase then from the system for 
the 3 years of law school is more than $36,000.
    One example of the many expensive accreditation 
requirements is the ABA's requirement that an accredited school 
have a library and extensive library collection. Insiders 
confirm that the ABA requires a minimum expenditure on the 
library of approximately $1 million per year. This is more than 
$4,000 per student per year in the average size school.
    The second way that the ABA requirements increase student 
costs of entering the legal profession is as follows: The ABA 
requires students to attend at least 6 years of expensive 
higher education--3 years of college and 3 years of law school. 
Before the Great Depression, a young person could enter the 
legal profession as an apprentice directly after high school. 
Now a person can become a lawyer only if she can afford to take 
6 years off from work after high school and pay 6 years of 
tuition. The total cost of the 6 years of tuition and 6 years 
of lost income easily exceeds $300,000.
    The student has to pay for the increased costs from 
accreditation somehow. Unless the student is wealthy, large 
student loans will be necessary. Under the Act, for students 
who will become prosecutors or public defenders, the taxpayers 
will pay for the loans.
    To reduce the costs that the Act imposes on taxpayers, the 
accreditation system's restrictions should be loosened. For 
example, law schools might be permitted to experiment with 
smaller libraries, cheaper practitioner faculty, and even 
shorter programs of 2 years rather than 3, just like business 
school. Or the requirements might be eliminated completely. 
Students without a degree from an accredited school would be 
able to practice law.
    Reducing or removing the flawed, artificial accreditation 
bottleneck would create many benefits but few harms. The 
current system's high-end qualities would continue, while a 
freer market for variety would quickly open up. To Rolls-Royce 
legal educations would be added Buicks, Saturns, and Fords.
    Reduction or elimination of the accreditation requirement 
is a modest, safe proposal. Even if accreditation were 
completely eliminated, it merely re-establishes the system that 
exists in other critical professions, a system that worked well 
in law for more than a century before the Great Depression. 
Business and accounting provide comforting examples of 
professions without mandatory accreditation. In both 
professions, people may provide full-quality basic services 
without attending an accredited school. A person who seeks to 
manage a local McDonald's franchise or to prepare tax returns 
need not attend business school or become a CPA first. Yet 
there is no indication that the level of malpractice or fraud 
is higher in these fields than in law. Likewise, there is no 
indication that malpractice and fraud were any more frequent 
during the century before accreditation and the bar exam when 
lawyers like Abraham Lincoln practiced. Lincoln never went to 
law school.
    The John R. Justice Prosecutors and Defenders Incentive Act 
is superb legislation. However, the ABA accreditation system 
increases the Act's costs. Limiting or eliminating the 
accreditation requirements would produce few harms and many 
benefits. The benefits would include making the Act much 
cheaper to implement.
    Thank you very much.
    [The prepared statement of Mr. Shepherd appears as a 
submission for the record.]
    Senator Durbin. Thank you, Professor Shepherd.
    Our final witness is Jessica Bergeman, Assistant State's 
Attorney in Cook County, currently serves the 2nd Municipal 
District of Cook County in Skokie. She prosecutes misdemeanor 
cases involving DUI, assault, theft, and domestic violence. A 
native of Boyertown, Pennsylvania, 2003 graduate of Temple 
University's Beasley School of Law in Philadelphia, she was one 
of Temple's first students in the Beasley's Scholars Program, 
and she received a scholarship that paid for her first year of 
law school education. When she graduated, she had approximately 
$65,000 in student loan debt from law school. According to a 
recent survey, the average law school loan debt assumed by 
prosecutors is around $65,000. So, Ms. Bergeman, I am sorry to 
say that in this category you are only average. But it could 
have been worse. However, in every other category of 
professional and personal accomplishment, it is clear you have 
been exceptional, and your public service has been an asset to 
Cook County and our State of Illinois.
    Glad to have you here today. The floor is yours.

 STATEMENT OF JESSICA A. BERGEMAN, ASSISTANT STATE'S ATTORNEY, 
    COOK COUNTY STATE'S ATTORNEYS OFFICE, CHICAGO, ILLINOIS

    Ms. Bergeman. Thank you, Senator Durbin. Allow me to 
express my thanks in having this opportunity. I have been 
shouting at the wall for so long, it is nice to have a voice in 
this forum. Thank you very much.
    There are ten misdemeanor Assistant State's Attorneys in my 
division. I would like to just introduce a few. In addition to 
the two exceptional Assistant State's Attorneys Senator Durbin 
already mention in Derrick and Aisha.
    Mark has been with the office for several years, and he has 
rotated through each of the assignments in our office, from 
petty tickets to Class A misdemeanors to domestic violence, 
preliminary hearings, and felony review. Mark walks to work 
whenever the weather permits, even though it takes him 40 
minutes each way, because leg power is cheaper than putting gas 
in his car. He pays $500 a month in student loans, and he has 
$70,000 to go. When I talked to Mark about coming here today, 
he said to me that all he wants to do someday is to be able to 
own his own home.
    Laura is uniquely situated to both investigate criminal 
charges and respond to the needs of the victims of crime. She 
came to the office after receiving undergraduate and graduate 
degrees in psychology, and she had top-secret clearance in the 
FBI's Organized Crime Division. She owes a minimum of $150,000 
in post-graduate loans. She, like me, makes $52,000 a year. She 
lives for payday so she can pay her bills and use almost 
everything that is left to buy groceries and put a full tank of 
gas in her car.
    And then there is me. I was raised by my mother, a single 
parent and a secretary for more than 35 years. I grew up, as 
Senator Durbin mentioned, in Boyertown, Pennsylvania, an area 
that until recently was a hotbed of neo-Nazi and Ku Klux Klan 
activity. It was there that I learned about both power and 
fear. On the one hand, I was the golden child. I was the honor 
roll student, the cheerleader, the Junior Miss Congeniality 
Award winner, and the nationally ranked public speaker. But, on 
the other hand, I was tormented and harassed because of my 
color, and my cousin was chased home by a truckload of 
Klansmen.
    It was then that I decided that I hated bullies, and I 
decided to become a prosecutor because of it. Nothing 
infuriates me more than watching someone wield power without 
compassion or, worse, vindictively or with hatred.
    Crime, as I have learned, is at its essence about power--
the power to forcibly or by deception take something not 
rightfully yours, the power to cause fear through the swinging 
of a fist or seeing the glint of steel flash before you. And 
yet I also recognize that members of the judicial system, 
prosecutors in particular, wield significant power themselves.
    Prosecutors hold the power to control the fate of cases and 
determine in which instances the people, whom we have sworn to 
represent, have actually been harmed and would demand redress, 
or in other instances where no harm is done and the criminal 
is, in fact, a criminal only because of circumstance. I will 
give you an example.
    If one's old semi-dilapidated car, like my 10-year-old 
Explorer, fails to pass an emissions test, the Secretary of 
State will suspend the driving privileges of the registered 
owner of the vehicle. Driving on a suspended license is a Class 
A misdemeanor, punishable by up to 364 days in the county jail, 
a fine of up to $2,500, or some combination of the two.
    Many defendants are too poor to fix the car, certainly too 
poor to buy a new one, and have unreliable or no public 
transportation option, yet they need to get to work to maintain 
their income, however limited it may be. That is an untenable 
position.
    If the prosecuting attorney standing on the far side of the 
bench has never wondered, much less lost sleep over, how to 
make ends meet financially, how much compassion will they have 
for the defendant's dilemma? And will they seek justice in that 
situation?
    My car personally has been in the shop four times since 
October, and even though I am very grateful for my credit cards 
in those instances, when the bill comes I wonder how many times 
I am going to be left eating Cup O Noodles for dinner because I 
cannot afford to buy groceries.
    Moreover, I keep the heat in my apartment at 62 degrees, 
and, Senator Durbin, as you know, Chicago is not warm in the 
wintertime. I cap the temperature at the level because if I set 
it any higher, my heating bills are more than $200 a month, and 
even the budget plan requires a $100-a-month payment all year 
long.
    Finally, my student loans total just under $400 a month. My 
last one is due on February 20, 2030. I will be 55 years old.
    I understand financial dilemmas, but beyond just the 
economics, out of the 26 Assistant State's Attorneys in my 
district, I am the only African-American prosecutor. I have 
been mistaken in court for the interpreter, the clerk, the 
public defender on a regular basis. And yet when I tell people 
who I am, even if they want to hate me, I can see the respect 
in their eyes when they look at me.
    I believe it is good for the communities of Chicago to see 
Assistant State's Attorneys of color. Unfortunately, it is 
often we who are most burdened with educational debt. And when 
people like me are forced to leave their position, it cannot 
just be considered a personal career setback. Their leaving has 
the potential to further the divisions between the prosecutors 
and the majority of the people that they prosecute.
    The word ``justice'' has a definition. The search for 
justice in the criminal system that bears its name requires a 
variety of perspectives and experience. And without bills in 
place like this one, the perspectives of the people entrusted 
with administering justice will be narrowed, their experiences 
homogenous, and justice itself more and more elusive.
    Thank you.
    [The prepared statement of Ms. Bergeman appears as a 
submission for the record.]
    Senator Durbin. Thank you for your testimony, and thanks to 
all three of you.
    I just let Senator Whitehouse know that we have a vote that 
just started. He is going to race over to the floor and vote, 
return, and during that period of time I will ask questions. 
Then he will ask, and I will try to return after that. So if it 
looks like a tag team match, it is.
    Before I ask specific questions of witnesses, I would like 
to place in the record statements from the following 
organizations: the National District Attorneys Association, 
Conference of Chief Justices, a letter from 62 State and local 
Chief Public Defenders, National Legal Aid and Defender 
Association, National Juvenile Defenders Center, a letter from 
30 State criminal defense lawyer associations, the Defenders 
Association of Philadelphia, the Oregon Office of Public 
Defense Services, the King County, Washington, Office of the 
Public Defender, the New York State Defenders Association, the 
National Association of Criminal Defense Lawyers, and the 
Metropolitan Public Defender Services of Portland, Oregon. And, 
without objection, they will be included in the record in 
support of the legislation pending.
    Ms. Bergeman, I have noticed when talking to private law 
firms that they put a premium on minorities. Many of them are 
anxious to have a diverse work force, particularly women, 
because many women who are talented and come to the law firm do 
not stay for long periods of time, make other decisions with 
their lives, have interrupted service in private practice and 
such. So it strikes me as an unusual situation here to learn of 
the sacrifice you are making to stick with public employment 
when the potential on the private side may be substantially 
greater.
    I have listened to your life story that you told us in 
brief here. How many others in the Cook County State's 
Attorneys Office are in similar circumstances that you know?
    Ms. Bergeman. There are far too many to mention, but what I 
think is so important to realize is that those of us who are in 
the office are there because of a true commitment to public 
service. We all recognize that we could walk out the front door 
of the Cook County State's Attorneys Office into a major law 
firm, and have all of our debts paid in a very short amount of 
time. But the long-term commitment for us is seeking justice in 
the justice system. And so many of us, whether it is women or 
people of color, feel that the most impact they can have is 
from working within that system, and that is why we are willing 
to give up all of those benefits, all of those perks.
    Unfortunately, so many people end up having to make the 
decision to leave public service because they need to be able 
to pay for the basic necessities of life. No one is running out 
to buy a Ferrari. They just want to pay their bills.
    Senator Durbin. It goes without saying that many of the 
defendants in these criminal trials are minorities as well. Is 
that not correct?
    Ms. Bergeman. It is the reality of the city of Chicago.
    Senator Durbin. The reality mainly of our country.
    Ms. Bergeman. Absolutely.
    Senator Durbin. And I happen to believe--and I take it from 
your testimony you feel the same--that for people in the 
courtroom to see diversity on both sides is a good indication 
of a justice system that is trying to be balanced in its 
approach. And if we lose that diversity, then we lose something 
in our justice system.
    Ms. Bergeman. That is unquestionably true. When someone 
walks into a courtroom and sees me as the prosecutor, they may 
suddenly feel that there is a chance for true justice for them; 
whereas, if I was not there, or if I was there in a different 
role, like the interpreter, they would not necessarily feel 
that way.
    Senator Durbin. Paul Logli, when it comes to your search 
for Assistant State's Attorneys in Rockford, has the territory 
or area that you have had to start searching in expanded over 
the years?
    Mr. Logli. Certainly. We could always rely on homegrown 
talent, and now we are reaching into the Chicago law schools or 
downstate. We go to law schools more often to recruit. We try 
to develop more networks. Thankfully, the State of Illinois had 
the wisdom to startup the Northern Illinois University Law 
School several years ago, and that has provided us.
    But the real challenge is I am spending more and more of my 
time interviewing the candidates for Assistant State's Attorney 
almost trying to talk them out of it, in a way. I have in front 
of me the net pay figure of what they are going to start with. 
And I say, ``Now, this is what you are going to get every 2 
weeks. Are you going to be able to pay the bills? Because I do 
not want you to start and then get frustrated and quit before 
you can really get to the point where you are enjoying the job 
and handling the major cases.'' That is the reality that we 
have been faced with.
    I was at an event the other night. One of my young 
assistants was there with his parents. Here is a man who went 
to a good undergraduate school out East, went to one of the 
Chicago law schools. We are paying him $42,500 a year. He is 
still living at home because he has substantial law school debt 
that just does not permit him to be independent. What is going 
to happen when he falls in love and wants to get married and 
start a family? He is not going to be able to stay in that 
office. He has already told me that even without that, next 
year the private loans have to start being paid. He cannot 
defer the payments any longer.
    He does not know what he is going to do, and it is a stress 
on him right now. And he is a bright young man from Rockford 
who turned down a job with a major Chicago law firm because he 
wanted to make a difference in his community. If I cannot 
attract and retain that person, we are significantly losing an 
important part of our prosecution efforts.
    Senator Durbin. What impact has this had on the diversity 
of Assistant State's Attorneys?
    Mr. Logli. A negative impact. I am fortunate to have 
several assistants that represent diversity, but certainly not 
enough to represent the population of my community, and that is 
troublesome. And as you referred to earlier, a minority 
graduate from a law school with substantial debt is going to 
get paid an incredible amount of money and is really sought 
after by the downtown firms on LaSalle Street. And I cannot 
compete with that. They are coming out of law school and 
getting $130,000, $140,000 a year. We start them at $42,500.
    Senator Durbin. Professor Shepherd, first thank you for 
endorsing the bill. I am glad you did. And you raise a very 
interesting question, which I think should be addressed, not 
just at law schools but across the board: Why are we paying so 
much more in tuition at universities and professional schools? 
Way beyond the increases in cost of living, way beyond 
increases in personal income.
    I know these are related, but I am not sure they are 
directly connected. It is as if we are dealing with the high 
gasoline bills people are paying, but saying before we can help 
you with your high gasoline bill, we have got to address the 
question of mass transit planning at the Federal level. People 
are still worried about filling that gas tank, and I think that 
we are talking about the practical side of it. So thank you 
first for endorsing the bill.
    But let me ask you a few particular questions because I 
think you raise some interesting points that I had not thought 
about before your testimony. As I understand it now--and let me 
make sure I get my numbers correct here--each State is 
responsible for its process for admission to the bar. As part 
of that process, States are not required to recognize 
graduation from an ABA-accredited school as fulfilling the 
requirement, but all 50 States currently do so to some extent.
    So are you calling for Federal legislation that would 
dictate to the States the standards they must set for admission 
to the bar?
    Mr. Shepherd. Well, I have not fully thought through this, 
but we must recognize that if States insist on requiring 
compliance with the accreditation standards from the ABA, that 
does increase the cost of law schools and, therefore, increases 
the obligations of the Federal Government under the Act. And so 
one thing that could be done is to condition provision of such 
aid with loosening up of the accreditation standards.
    There are some States with looser accreditation standards, 
for example, California. There are unaccredited law schools 
there. If you graduate from them, you are permitted to practice 
law within the State of California, and the schools are half 
the price of accredited schools. And those schools impose half 
the financial burden under the Act on the Federal Government.
    So I have not thought through exactly the vehicle for doing 
this, but maybe there is some way for the Federal Government to 
insist that its money be spent wisely.
    Senator Durbin. The ABA and the National Conference of Bar 
Examiners' Guide to Bar Requirements notes that not all States 
require that bar exam applicants graduate from an ABA-approved 
law school. Only 21 States or jurisdictions limit eligibility 
to take the bar exam to graduates of ABA-approved law schools. 
Three States do not require that a law school be ABA or State 
approved, and seven States permit law office study.
    Is there evidence that law school tuitions are lower in 
States that do not require bar applicants graduate from ABA-
accredited law schools?
    Mr. Shepherd. Well, for example, California, as I just 
indicated. The unaccredited law schools there are about half 
the price of the accredited ones. Similarly, in Massachusetts, 
there is a school called Massachusetts School of Law which has 
a special dispensation that its graduates can practice law in 
several States in New England. Its prices are substantially 
below the prices of accredited law schools. The numbers require 
that, because the ABA accreditation standards impose costs on 
law schools, they need to be passed along if the school is not 
to fail.
    Senator Durbin. You have taken us beyond that suggestion to 
a brave new world, perhaps a return to a brave old world, which 
would allow people to read for the bar, I suppose, as Abraham 
Lincoln did. And you use an analogy of someone starting a 
business, a McDonald's, with no requirement that they have a 
business degree.
    But it strikes me that there is a significant difference. A 
person lacking talent who opens a business and fails loses his 
investment. An attorney lacking talent may lose a case and his 
defendant go to jail for life.
    Isn't that a little different?
    Mr. Shepherd. It is different, but first we need to look at 
the other professions which have similar requirements, for 
example, accounting. One can be an accountant without having to 
become a CPA. My mother works for H&R Block without having 
gotten a CPA and works for about $20 an hour or $15 an hour, 
and she is hired at H&R Block because she is not representing 
defendants in capital cases.
    Similarly, the market would sort things out such that you 
would not have inexperienced people without law degrees 
representing people either in capital murder cases or 
representing large companies in large transactions. The market 
would sort things out just the way it did 80 years ago. And, 
similarly, you can see this in other fields such as 
engineering. Many States do not require that someone go to an 
accredited school to become an engineer, even though 
engineering, of course, failure in that area can result in 
people being killed by buildings falling down.
    So I think--
    Senator Durbin. I do not doubt that the market would sort 
it out. I just wonder how many customers in that market would 
have a miserable life experience while the sorting is taking 
place. That is my concern if we do not have some standards for 
law school and standards for admission to the bar. But I 
appreciate your testimony. It is challenging, and I am going to 
think about it myself as I proceed to rush over for a vote 
because I have 4-1/2 minutes left.
    I am going to turn it over to Senator Whitehouse, who was 
here first, to ask questions, and then Senator Cardin, and I 
will try to return. Thank you for your testimony.
    Mr. Shepherd. Thank you.

 STATEMENT OF HON. SHELDON WHITEHOUSE, A U.S. SENATOR FROM THE 
                     STATE OF RHODE ISLAND

    Senator Whitehouse. Well, I thank you all for being here. I 
appreciate it. This is an important issue, and I want to 
commend Senator Durbin for having taken the lead on it. I do 
not know how familiar you are with my background, but I have 
served as United States Attorney and led prosecutors in the 
Federal system. I have served as a State Attorney General and 
led prosecutors who are State officials, Assistant Attorneys 
General and Special Assistant Attorneys General. And I began my 
career as a staff attorney in the Attorney General's office 
many years ago, and I distinctly remember we were working very 
late hours because there was all sorts of stuff we had to do. 
And I was working for an Attorney General--I see our public 
defender Barbara Hurst in the audience. She will remember 
Attorney General Violet, who was the Attorney General at the 
time, and she insisted that the staff members keep track of 
their hours. So it was very late one night, and I was filling 
out my weekly report of the hours that I had been at the 
office. And I happened to have my paycheck as well. I do not 
know what compelled me to do this, but I figured I would do a 
little simple division. And the number that I came up with was 
below the prevailing minimum wage in Rhode Island at the time.
    [Laughter.]
    Senator Whitehouse. It had more to do with long hours than 
it had to do with low wage, but it was a deadly combination of 
the two. And I come from fortunate circumstances so I did not 
have college loans. I had been able to pay my way through 
college and law school.
    The idea that somebody could have stepped into that 
position and given that job the attention that it needed for 
that level of remuneration, who also had had to pay for college 
and carry the weight of those loans, it just could not happen. 
It just could not happen. So I am really glad that we are doing 
this, and I really applaud Senator Durbin for thinking about 
it.
    Jessica, I appreciate your testimony. You seem to have had 
some similar experiences. We know where it comes from.
    One concern that I have in the legislation that I think we 
are going to address later on is that it appears at this point 
that there would be a question whether it would cover 
prosecutors who work in the juvenile area. And I would want to 
make sure that this legislation covers prosecutors who were 
operating in the juvenile arena as well. I know that there are 
semantic distinctions. It is not technically prosecution. It is 
not technically criminal. But it is very similar, and I want to 
make sure that we reach out to the entire community, and people 
should not feel separated between the two, particularly with 
the sort of crimes that juvenile prosecutors nowadays have to 
face.
    Mr. Logli, I did not have the chance to hear your 
testimony. I have just arrived here. Would you mind giving me 
the 2- or 3-minute version?
    Mr. Logli. Absolutely, Senator.
    Senator Whitehouse. My apologies for this, but we have been 
all scrambled today with the vote going.
    Mr. Logli. That is absolutely not a problem. We appreciate 
you being here, and we appreciate your support for this.
    Basically, Senator, we have been dealing with this--we 
identified this as a major issue back in 1998 and 1999, and we 
started to observe a very disturbing trend, and that was that 
more and more of the young men and women that we were trying to 
hire were coming to us with substantial student loan debts, 
both undergraduate and law school, but especially the law 
school debts.
    We have since discovered that the average amount borrowed 
in law school by the class of 2005 was nearly $80,000. It was 
$78,763 on average. And that was if you graduated from a 
private school. If you graduated from a public school, the 
average law school debt was $51,056.
    These are mortgage-size debts. These are much bigger than 
the mortgage I had on my first home, and they are just 
debilitating. They discourage people from even considering 
coming into the public sector. And even if they do come with 
the best of intentions, they do not stay very long. They cannot 
stay. If they want to start a family, buy a home, get a new 
car, it becomes a real impediment.
    So in my office's example, the number of Assistant State's 
Attorneys in my office has increased in the last 10, 15 years. 
But what has not increased is the number of career prosecutors. 
I just have more prosecutors coming and going in larger numbers 
because they cannot afford to stay in the office.
    We look for those persons that are really driven to come in 
and make a difference in their community. And at the same time, 
when I am interviewing them, I have to really grill them on 
whether they can afford to work there. I show them the net on a 
typical check and say, ``Are you going to be able to live on 
this? Because, otherwise, you are going to be frustrated.''
    Senator Whitehouse. So they do not have to face buyer's 
remorse afterwards when they get that first paycheck?
    Mr. Logli. Well, sometimes they do, Senator. But in the 
last 30 days, I have lost two fine young prosecutors who left 
for one reason, and one reason only: economics.
    Senator Whitehouse. Senator Cardin has got a tight 
schedule, so if you do not mind, I will interrupt for a second.
    Mr. Logli. Sure, absolutely.
    Senator Whitehouse. I will yield the floor to the Senator 
from Maryland.

 STATEMENT OF HON. BENJAMIN L. CARDIN, A U.S. SENATOR FROM THE 
                       STATE OF MARYLAND

    Senator Cardin. Thank you very much. First, let me thank 
all of you for your testimony.
    As a way of background, I chaired the Maryland Legal 
Services Corporation for about 6 years, and I also chaired a 
commission in the State of Maryland for public interest law. So 
I am very sympathetic to this bill, and I am very concerned 
about the fact that student loan debt is impacting decisions 
made by law school graduates, that they have to look at the 
economic realities rather than perhaps what they really want to 
do in life. But that is true beyond just the public defender's 
office or the prosecutor's office. It goes into a whole range 
of public interest areas.
    So I guess my question is whether--this goal is certainly 
one that I support, helping the prosecutors. There is a dire 
need in the civil areas to get young attorneys willing to work 
in those areas. Some of our States have programs that provide 
for loan forgiveness and other programs dealing with those who 
go into public interest law. But with the Federal Government 
intrusion into this area, I am just somewhat concerned as to 
whether this is broad enough and whether we should be looking 
at other areas in addition to prosecutors and defenders, 
defense attorneys. Any thoughts?
    Mr. Logli. Well, obviously, the National District Attorneys 
Association is primarily concerned about the prosecutors and 
defenders because we are primarily concerned with the criminal 
prosecution. But I have got to tell you, I understand the 
problems of which you speak. Prairie State Legal Services is a 
corporation in Illinois that provides just the type of services 
you are talking about, Senator. It helps the indigent people 
with the problems they have in the civil courts. If there is a 
group of lawyers that are paid even less than what I pay my 
lawyers, it is Prairie State Legal Services. And as lawyers, I 
know that we contribute to it, we raise funds for it. Many of 
the lawyers in the private sector volunteer their time to take 
the load off those attorneys.
    At the risk of making the pool so broad that we dilute 
whatever money the Government may put into it, I would be hard 
pressed to say, no, do not include them. They are in there 
performing a valuable function.
    Senator Cardin. Here is the problem. Here is the problem. 
There are certain constitutional protections in our criminal 
defense system, and we know that we will always be able to put 
public pressure to prosecute--maybe not at the level we want 
to. In the civil areas, there is no such protection. And 
surveys have shown that the amount of adequate representation 
to indigent or low-income individuals in our civil justice 
system is very, very low.
    One of the problems is that you cannot attract experienced 
attorneys to work in this area. They may work a year or two, 
and they leave. The first recommendation I made as Chairman of 
the State commission was to increase the salaries of those in 
legal aid because the salaries were unbelievably low, much 
lower than your entry levels in the prosecutor's offices in our 
State.
    So I am sympathetic to what this bill is trying to do, but 
I do think there is a desperate need out there to deal with 
access to our justice system in which too many attorneys are 
foregoing because they cannot afford to go into those fields.
    Mr. Shepherd. I was here to testify about how the ABA 
accreditation system has increased the costs of legal 
education, and my calculations and my own research indicate 
that if one goes to a private ABA-accredited school and one 
does not have family means to support you during that 
education, to be able to pay your loans you have to earn about 
$55,000 or $60,000 per year afterwards. If you earn less, you 
cannot make a go of it.
    So, really, what the system has done is created a situation 
in which only those with private family means can engage in 
legal services or can become prosecutors or public defenders, 
and it is just wrong.
    Senator Cardin. I am somewhat concerned, though, with the 
limited aspects of this legislation. I just think it--I am not 
sure it is the right signal for the Federal Government's 
participation.
    Ms. Bergeman. I would simply suggest, Senator, that with 
the criminal justice system, you are talking about a penal 
interest, and to some extent, I think there needs to be more 
protection provided there because we are talking about 
potential loss of liberty.
    Senator Cardin. If a person loses their home or cannot get 
health care or cannot get access to social services, that is 
pretty tragic.
    Ms. Bergeman. It is absolutely tragic. It is absolutely 
tragic without a doubt. And I simply draw the distinction 
between that and a loss of liberty in terms of incarceration.
    Senator Whitehouse. I think, Senator, the even more 
practical distinction is that there is a CBO number attached to 
this with respect to its application to those involved in the 
criminal justice system. And if we get beyond that, we get into 
new budget realms. So perhaps that is for a later day.
    Senator Cardin. We shall see.
    Senator Whitehouse. We shall see.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Whitehouse. Well, I appreciate all of your 
testimony. This has been very, very helpful. I note that a 
number of organizations have already sent in letters of 
interest and support. I hope we will hear from the National 
Association of Attorneys General at some point and maybe even 
NAFUSA, the National Association of Former United States 
Attorneys, although I think on the Federal side, the salary 
issues are less compelling. But I think anybody who has been in 
this world of law enforcement has witnessed the enormous 
sacrifice and dedication of people who work at the State level 
and in some cases at the municipal and county level at what 
really is a pittance of their earning capacity because of their 
love for what they do and because of their dedication to the 
principles that part of the legal practice is dedicated to 
upholding. So I am very grateful to all of you.
    If there are no further comments, I will bring this hearing 
to a close. The hearing record will remain open for 1 week for 
additional materials from interested individuals or 
organizations to be submitted. Written questions for the 
witnesses--you may end up having homework--must also be 
submitted by the close of business 1 week from today, and 
written questions may be submitted to our absent witness, 
Michael Judge. We will ask the witnesses to respond to those 
questions promptly so we can complete the record.
    I hope that this hearing has helped impress on everyone the 
importance of facilitating the continued dedication of the best 
and our brightest young lawyers to this vital part of our legal 
profession and this vital part of our society. And I appreciate 
everybody's attention today.
    Thank you. The hearing is adjourned.
    [Whereupon, at 2:58 p.m., the Committee was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T5799.001
    
    [GRAPHIC] [TIFF OMITTED] T5799.002
    
    [GRAPHIC] [TIFF OMITTED] T5799.003
    
    [GRAPHIC] [TIFF OMITTED] T5799.004
    
    [GRAPHIC] [TIFF OMITTED] T5799.005
    
    [GRAPHIC] [TIFF OMITTED] T5799.006
    
    [GRAPHIC] [TIFF OMITTED] T5799.007
    
    [GRAPHIC] [TIFF OMITTED] T5799.008
    
    [GRAPHIC] [TIFF OMITTED] T5799.009
    
    [GRAPHIC] [TIFF OMITTED] T5799.010
    
    [GRAPHIC] [TIFF OMITTED] T5799.011
    
    [GRAPHIC] [TIFF OMITTED] T5799.012
    
    [GRAPHIC] [TIFF OMITTED] T5799.013
    
    [GRAPHIC] [TIFF OMITTED] T5799.014
    
    [GRAPHIC] [TIFF OMITTED] T5799.015
    
    [GRAPHIC] [TIFF OMITTED] T5799.016
    
    [GRAPHIC] [TIFF OMITTED] T5799.017
    
    [GRAPHIC] [TIFF OMITTED] T5799.018
    
    [GRAPHIC] [TIFF OMITTED] T5799.019
    
    [GRAPHIC] [TIFF OMITTED] T5799.020
    
    [GRAPHIC] [TIFF OMITTED] T5799.021
    
    [GRAPHIC] [TIFF OMITTED] T5799.022
    
    [GRAPHIC] [TIFF OMITTED] T5799.023
    
    [GRAPHIC] [TIFF OMITTED] T5799.024
    
    [GRAPHIC] [TIFF OMITTED] T5799.025
    
    [GRAPHIC] [TIFF OMITTED] T5799.026
    
    [GRAPHIC] [TIFF OMITTED] T5799.027
    
    [GRAPHIC] [TIFF OMITTED] T5799.028
    
    [GRAPHIC] [TIFF OMITTED] T5799.029
    
    [GRAPHIC] [TIFF OMITTED] T5799.030
    
    [GRAPHIC] [TIFF OMITTED] T5799.031
    
    [GRAPHIC] [TIFF OMITTED] T5799.032
    
    [GRAPHIC] [TIFF OMITTED] T5799.033
    
    [GRAPHIC] [TIFF OMITTED] T5799.034
    
    [GRAPHIC] [TIFF OMITTED] T5799.035
    
    [GRAPHIC] [TIFF OMITTED] T5799.036
    
    [GRAPHIC] [TIFF OMITTED] T5799.037
    
    [GRAPHIC] [TIFF OMITTED] T5799.038
    
    [GRAPHIC] [TIFF OMITTED] T5799.039
    
    [GRAPHIC] [TIFF OMITTED] T5799.040
    
    [GRAPHIC] [TIFF OMITTED] T5799.041
    
    [GRAPHIC] [TIFF OMITTED] T5799.042
    
    [GRAPHIC] [TIFF OMITTED] T5799.043
    
    [GRAPHIC] [TIFF OMITTED] T5799.044
    
    [GRAPHIC] [TIFF OMITTED] T5799.045
    
    [GRAPHIC] [TIFF OMITTED] T5799.046
    
    [GRAPHIC] [TIFF OMITTED] T5799.047
    
    [GRAPHIC] [TIFF OMITTED] T5799.048
    
    [GRAPHIC] [TIFF OMITTED] T5799.049
    
    [GRAPHIC] [TIFF OMITTED] T5799.050
    
    [GRAPHIC] [TIFF OMITTED] T5799.051
    
    [GRAPHIC] [TIFF OMITTED] T5799.052
    
    [GRAPHIC] [TIFF OMITTED] T5799.053
    
    [GRAPHIC] [TIFF OMITTED] T5799.054
    
    [GRAPHIC] [TIFF OMITTED] T5799.055
    
    [GRAPHIC] [TIFF OMITTED] T5799.056
    
    [GRAPHIC] [TIFF OMITTED] T5799.057
    
    [GRAPHIC] [TIFF OMITTED] T5799.058
    
    [GRAPHIC] [TIFF OMITTED] T5799.059
    
    [GRAPHIC] [TIFF OMITTED] T5799.060
    
    [GRAPHIC] [TIFF OMITTED] T5799.061
    
    [GRAPHIC] [TIFF OMITTED] T5799.062
    
    [GRAPHIC] [TIFF OMITTED] T5799.063
    
    [GRAPHIC] [TIFF OMITTED] T5799.064
    
    [GRAPHIC] [TIFF OMITTED] T5799.065
    
    [GRAPHIC] [TIFF OMITTED] T5799.066
    
    [GRAPHIC] [TIFF OMITTED] T5799.067
    
    [GRAPHIC] [TIFF OMITTED] T5799.068
    
    [GRAPHIC] [TIFF OMITTED] T5799.069
    
    [GRAPHIC] [TIFF OMITTED] T5799.071
    
    [GRAPHIC] [TIFF OMITTED] T5799.072
    
    [GRAPHIC] [TIFF OMITTED] T5799.073
    
    [GRAPHIC] [TIFF OMITTED] T5799.074
    
    [GRAPHIC] [TIFF OMITTED] T5799.075
    
    [GRAPHIC] [TIFF OMITTED] T5799.076
    
    [GRAPHIC] [TIFF OMITTED] T5799.077
    
    [GRAPHIC] [TIFF OMITTED] T5799.078
    
    [GRAPHIC] [TIFF OMITTED] T5799.070
    
    [GRAPHIC] [TIFF OMITTED] T5799.079
    
    [GRAPHIC] [TIFF OMITTED] T5799.080
    
    [GRAPHIC] [TIFF OMITTED] T5799.081
    
                                 <all>

</pre></body></html>
